No. 19-120
IN THE

Supreme Court of the Anited States

IBG LLC AND INTERACTIVE BROKERS LLC,

 

Petitioners,
Vv.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,

Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this 30" day
of September, 2019, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies of the
foregoing SUPPLEMENTAL BRIEF UNDER RULE 15.8 SUPPORTING PETITION FOR
WRIT OF CERTIORARI by placing said copies in the U.S. mail, first class postage prepaid,
addressed as listed below.

Michael Gannon Noel J. Francisco

Baker & Hostetler LLP Solicitor General of the United States
One North Wacker Drive United States Department of Justice
Suite 4500 950 Pennsylvania Avenue, NW
Chicago, IL 60606 . Washington, DC 20530-0001

(312) 416-6275 (202) 514-2217
mgannon@bakerlaw.com SupremeCtBriefs@USDOJ.gov

Mark R. Freeman
Department of Justice

Civil Division, Appellate Staff
950 Pennsylvania Avenue NW
Washington, DC 20530
mark.freeman2@usdoj.gov

    

RAYMO}MS CHARLES CLARK
S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 30" day of September, 2019.
Coy PIER GS

  
  

 

EN PIERANGELI
NOTARY PUBLIC, DISTRICT OF COL! TA.
My Commission Expires June 14, 2020.

 

 

 
